                                        SOCIAL SECURITY
MEMORANDUM


Date:      May 8, 2007                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Disability Determination Services Processing
           (A-02-06-16110)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 15 of the Social
           Security Administration’s performance indicators established to comply with the
           Government Performance and Results Act. Attached is the draft report presenting the
           results of two of the performance indicators PwC reviewed. For the performance
           indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2006
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators:
           •   Agency Decisional Accuracy Rate
           •   Disability Determination Services Cases Processed per Workyear

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                             Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     PERFORMANCE INDICATOR
              AUDIT:
    DISABILITY DETERMINATION
       SERVICES PROCESSING


    May 2007     A-02-06-16110




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      May 3, 2007

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Disability Determination Services Processing
           (A-02-06-16110)

OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and are not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in the Fiscal Year
              (FY) 2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: DDS Processing (A-02-06-16110)                                         1
BACKGROUND

We audited the following performance indicators as stated in the SSA FY 2006 PAR:

             Performance Indicator                   FY 2006 Goal     FY 2006 Reported
                                                                           Results
    Agency Decisional Accuracy (ADA)                                              *
                                                           97%             97%
    Rate
    Disability Determination Services (DDS)
    Cases Processed per Workyear                           262              241
    (PPWY)
*The performance data shown for FY 2006 is based on performance through June 2006. Actual end-of-
year data will be reported in the FY 2007 PAR.

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI)
and Supplemental Security Income (SSI) programs. The OASI program, authorized by
Title II of the Social Security Act, provides income for eligible workers and for eligible
members of their families and survivors. 5 The DI program, also authorized by Title II of
the Social Security Act, provides income for eligible workers who have qualifying
disabilities and for eligible members of their families before those workers reach
retirement age. 6 The SSI Program, authorized by Title XVI of the Social Security Act,
was designed as a needs-based program to provide or supplement the income of aged,
blind, and/or disabled individuals with limited income and resources. 7

To determine eligibility for both Title II and Title XVI programs, applicants must first file a
claim with SSA. This is typically accomplished through an appointment in 1 of SSA’s
approximately 1,300 field offices (FO), through the SSA telephone network, or online via
the Internet Social Security Benefit Application. Interviews with the applicants are
conducted by FO personnel via the telephone or in person to determine the applicants’
non-medical eligibility. If the applicant is filing for benefits based on disability, basic
medical information concerning the disability, medical treatments, and identification of
treating sources (e.g. a Doctor's office) is obtained.

Field office personnel input the applicant’s information into the Modernized Claims
System (MCS) for OASI and DI claims or the Modernized SSI Claims System (MSSICS)
for SSI claims. A relatively minor number of OASI and DI claims are input through the
SSA Claims Control System (SSACCS). SSACCS is used to process claims that
cannot be fully processed through MCS. For example, when a Title II record is
established, the MCS application allows for entry of up to 11 claimants on the specific
record. Additional claimants to a single MCS record would need to be recorded on
SSACCS. DI and SSI disability claims are sent to the State DDS office for review of

5
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
6
    Id.
7
    The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


Performance Indicator Audit: DDS Processing (A-02-06-16110)                                     2
medical information and a disability determination. The State DDS offices input case
determinations into the National Disability Determination Services System (NDDSS).

The Office of Quality Control (OQC) routinely performs reviews of initial decisions for DI,
SSI, or concurrent disability determinations made by DDS personnel (concurrent cases
are cases in which there is a claim for both DI and SSI benefits simultaneously). Cases
that meet sampling criteria are selected within NDDSS and sent to Disability Quality
Branches (DQB) for review by medical consultants and disability examiners. The
reviews are both medical and non-medical and replicate the DDS process to determine
whether the correct disability determinations were made by DDS personnel. DQB
review results are input into the Disability Case Adjudication and Review System
(DICARS) which is then interfaced to the Management Information Services Facility
(MISF) for reporting purposes.

RESULTS OF REVIEW
Our assessment of the two indicators included in this report did not identify any
significant exceptions related to the meaningfulness of these indicators, the accuracy of
presentation, or disclosure of information related to these indicators in the FY 2006
PAR.

Our assessment did identify issues with internal controls and data reliability. For the
indicator "Agency Decisional Accuracy Rate," we noted that SSA programmer
personnel in the Office of Quality Performance had direct data access that would allow
them to update production performance indicator data. In addition, the programming
logic used to create one of the system generated reports (used to calculate the agency
decisional accuracy rate) was created and quality reviewed by the same programmer.
The programming logic should have been independently reviewed to ensure it was
developed to accurately meet the intent of the functional requirements. Due to these
internal controls weaknesses, we found the data to be unreliable.

For the indicator "DDS Cases Processed per Workyear (PPWY)," we noted that an
audit trail for transactions processed through the SSACCS application did not exist. In
addition, management had not formally documented procedures to review and confirm
the indicator calculation and results. Despite these internal control weaknesses, we
were able to determine that the data used to calculate this performance indicator was
reliable.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                               3
Indicator Backgrounds

Agency Decisional Accuracy rate

When DDS personnel complete their review of a case, the disability determination is
input into NDDSS. On a daily basis, the Automated Sample Selection Process (ASSP)
module of NDDSS automatically selects a sample of initial DI, SSI, or concurrent cases
for review by DQB personnel. The cases selected by the ASSP are first screened for
inclusion in the Quality Assurance (QA) review and then screened for inclusion in the
Pre-effectuation Review (PER).

The QA review includes a review of initial determinations of Title II, Title XVI, and
concurrent Title II/Title XVI cases. The PER includes a review of initial determinations
of favorable determinations of Title II or concurrent Title II/Title XVI cases. By law,
PERs must be performed on at least 50 percent of the favorable Title II or concurrent
Title II/Title XVI disability determinations to identify deficiencies prior to effectuation. 8 If
a case meets the criteria to be selected for both a QA and PER review, it is reviewed
once, but double-counted as both a QA and PER review. This process occurs on an
ongoing basis as determinations are cleared by DDS personnel.

After sample selection, the case information is compiled into one file (the file contains
both PER and QA samples) which is placed on the MISF. On a nightly basis, a series
of mainframe batch jobs separate the file into 10 files that are segmented by each
region. Each morning, users at the DQBs select the file on the MISF for their region
and upload the file into DICARS. The DQB personnel perform a medical and
non-medical review of the case to determine if the disability determination on the case
has been made correctly. When deficiencies are identified during the review, DQB
personnel return the case to the originating DDS for correction. If the DDS disagrees
with the correction to be made, it can rebut the decision. The DDS will notify the DQB
of the rebuttal and if a decision is not agreed upon, the rebuttal will be documented and
sent to Headquarters to decide on an outcome. If corrections are required, DDS
personnel will correct the identified deficiencies and return the case to the DQB for
completion of their review.

Upon completion of their review, DQB personnel input the results for each case into
DICARS. Decisional errors that are corrected during the course of the DQB review are
subtracted from the overall number of estimated errors. Each day, DQB personnel
transfer a file containing all completed review results from DICARS to the MISF. On a
nightly basis, a series of mainframe batch jobs compile the results of all regional DQB
reviews from the previous day into a single file. In addition, a report is automatically
printed at the DQB on a nightly basis that lists the QA and PER cases that were
successfully transmitted to the MISF. If the report indicates that there were cases not
transferred to the MISF due to errors, DQB personnel correct the specific cases so they
will be included in the ADA rate result.


8
    The Social Security Act, § 221(c), 42 U.S.C. § 421.


Performance Indicator Audit: DDS Processing (A-02-06-16110)                                     4
The DQB review is used to identify the percentage of correct determinations made by
DDS personnel for cases meeting QA and PER criteria. On a quarterly basis, the “ADA
Accuracy - National and Regional Rates” report is generated from the results file on the
MISF. The report contains the fiscal Year-to-Date (YTD) accuracy rate up to the prior
quarter end. Results are reported on a 3 month rolling basis to allow time for corrective
actions to take place on cases reviewed. For example, results reported in October will
be the accuracy rate for the months of April through June.

Performance Indicator Calculation

                                                      (1 - (Total Estimated Errors - Total
    Agency Decisional Accuracy Rate             =     Changed Decisions) / Total
                                                      Disability Determinations) * 100

Findings

Internal Controls and Data Reliability

We identified two internal control issues. First, six members of SSA's OQC’s
programming personnel had the "All" access designation within the Top Secret security
software to MISF datasets used to calculate the indicator results. This level of access
allows users to create, delete and modify any of the data (or datasets) contained within
the datasets we reviewed. Therefore, the data used to calculate the performance
indicator could be inappropriately modified and could impact the results of this
performance indicator. This level of access prevents SSA from ensuring the integrity of
this production data. By allowing programming personnel to have the "All" access
designation, SSA is not conforming to Office of Management and Budget Circular
A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources, principles of "least privileged access" or segregation
of duties. 9

Second, OQC management's quality review of the quarterly "ADA Accuracy - National
and Regional Rates" programming logic (code) was performed in part by one of the
programmers that developed the code used to create the report. This programmer is
also one of the six individuals noted above who has the "All" access Top Secret
designation to the MISF data used to generate the report. The quality review of the
code and data access issue creates a segregation of duties conflict, as an independent
review and verification of the reported initial results was not completed.

Additionally, we found that the MISF data used to record QA and PER results was not
archived and maintained. SSA management stated that the detailed data was not
maintained due to limited data storage space and lack of personnel resources.
Therefore, we performed alternative testing procedures to assess the reliability of the
indicator data presented in the PAR.

9
 SSA is currently implementing the Standardized Security Profile Project to address the principle of “least
privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: DDS Processing (A-02-06-16110)                                              5
As a result of these tests, we are reasonably comfortable that the data reported in the
PAR for this indicator are complete, accurate, and consistent. However, the data
cannot be considered reliable since the two access control issues noted above created
the potential for inappropriate alteration.

We did not identify any significant exceptions related to the accuracy of the presentation
and disclosure of the information related to this indicator contained in the PAR, or to the
meaningfulness of this indicator. However, due to the access and independent review
control issues raised previously, we could not consider the data used to calculate the
results of the indicator to be reliable.

Disability Determination Services (DDS) Cases Processed per Workyear (PPWY)

When a claim determination is made by DDS personnel, the status is entered into
NDDSS and the case is closed. The data within NDDSS is automatically transferred to
the Disability Operational Datastore (DIODS). Workyear information is input into DIODS
by management at each DDS on a weekly basis. DDS managers are required to input
information related to both direct and indirect time expended for all work in DIODS. The
average number of cases processed by an individual DDS employee is captured on the
DDS Staffing and Workloads Analysis (FD-15) Report, generated from DIODS.

The Office of Disability Determinations prints the FD-15 Report on a weekly basis and
reviews the report for errors or anomalies. This report displays cases processed per
workyear for the current week, rolling 4 weeks, quarter ending, cumulative, and adjusted
cumulative cases processed. The cumulative YTD calculation includes all contractor
hours related to processing of cases, and is directly used for reporting indicator results
within the PAR. The adjusted YTD calculation includes all clerical and non-clerical
contractual hours.

Performance Indicator Calculation

 Disability Determination Services
                                                           Total Clearances
   (DDS) Cases Processed per            =
                                                         Annual Workyear Rate
         Workyear (PPWY)

Annual Workyear Rate is defined as direct and indirect time, including overhead time
(time spent on training, travel, leave, holidays, et cetera).

Findings

Internal Controls and Data Reliability

We identified two internal control issues. First, an audit trail for transactions processed
through SSACCS was not created or reviewed. Accordingly, management is not able to
review and identify inappropriate or unauthorized transactions being processed through
SSACCS.



Performance Indicator Audit: DDS Processing (A-02-06-16110)                              6
Second, we found that there are no formally documented procedures outlining the
process for managers to consistently review the FD-15 reports in a timely manner. This
increases the risk that standard and timely procedures will not be followed when
reviewing the reports. Lack of a standard and timely management review could result in
inaccurate reporting of indicator results.

Additionally, we also found that the DIODS data used to classify the disability claims as
clearances was not archived and maintained. SSA management stated that the
detailed data was not maintained due to limited data storage space and lack of
personnel resources. Therefore, we performed alternative testing procedures to assess
the reliability of the indicator data presented in the PAR.

Specifically, we performed a detailed review of the code used to generate the indicator
results (included on the FD-15 report). We concluded that the code is designed to
calculate the indicator results as described by SSA management. In addition, we
selected numerous cases from DIODS, and compared the case information to the
corresponding records in the Supplemental Security Record and the Master Beneficiary
Record. Also, we were able to observe the final calculation of this indicator on a real-
time basis. We compared the final reported results of this indicator as reported in the
PAR with the final data recorded on the FD-15 report (which includes final indicator
results). Our testing resulted in no exceptions with the code, the data in DIODS, or the
results recorded on the PAR.

We did not identify any significant exceptions related to the meaningfulness of this
indicator or the accuracy of the presentation and disclosure of the information related to
this indicator contained in the PAR. Also, based on the additional control testing we
completed related to the DIODS data, as well as our review of the code that was used
to calculate the indicator results, we were able to conclude that the data used in the
calculation of the indicator results was reliable at the time of calculation.

RECOMMENDATIONS
Specific to the performance indicator, “Agency Decisional Accuracy Rate” we
recommend SSA:

1. Ensure that the “least privileged access” principle is in place for SSA personnel that
   have the ability to directly modify, create or delete the datasets used to calculate the
   results of this indicator.

Specific to the performance indicator, “Disability Determination Services Cases
Processed per Workyear” we recommend SSA:

2. Implement formal procedures to ensure that reviews of the FD-15 reports are
   performed in a timely manner.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                               7
3. Maintain an audit trail for SSACCS that captures the user identification, terminal,
   date and time the transaction was processed. Policies and procedures should be
   implemented requiring a review of the audit trail for inappropriate access or
   processing of transactions. In the event that the SSACCS application is replaced,
   SSA management should ensure that the replacement system is designed with the
   appropriate audit trail controls.

AGENCY COMMENTS
SSA agreed with the first two recommendations and disagreed with the third. In
disagreeing with the third, SSA stated that SSACCS will be phased out; therefore, it is
cost-prohibitive to maintain an audit trail for this system’s transactions. However, SSA
agreed that the replacement system should be designed with appropriate audit trail
controls. The Agency’s comments are included in Appendix D.

PwC RESPONSE
We appreciate the Agency’s comments and consideration of our recommendations.
While SSA management noted disagreement with our third recommendation, we
believe management's narrative response actually shows agreement with it. We concur
that SSA management should not change the current SSACCS system, if it intends to
replace SSACCS with a new system in the near future. SSA stated in its response that
it will build the appropriate audit trail into the new system, which was what we
recommended.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                                8
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D - Agency Comments




Performance Indicator Audit: DDS Processing (A-02-06-16110)
                                                                   Appendix A
Acronyms
 ADA        Agency Decisional Accuracy
 ASSP       Automated Sample Selection Process
 DDS        Disability Determination Services
 DI         Disability Insurance
 DICARS     Disability Case Adjudication and Review System
 DIODS      Disability Operational Datastore
 DQB        Disability Quality Branch
 FD-15      DDS Staffing and Workload Analysis
 FO         Field Office
 FY         Fiscal Year
 GPRA       Government Performance and Results Act
 MBR        Master Beneficiary Record
 MCS        Modernized Claims System
 MISF       Management Information Services Facility
 NDDSS      National Disability Determination Services System
 OASI       Old-Age and Survivors Insurance
 ODD        Office of Disability Determinations
 OQC        Office of Quality Control
 OS         Office of Systems
 PAR        Performance and Accountability Report
 PER        Pre-effectuation Review
 PPWY       Processed per Work Year
 QA         Quality Assurance
 SAOR       State Agency Operations Report
 SSA        Social Security Administration
 SSACCS     Social Security Administration Claims Control System
 SSI        Supplemental Security Income
 SSR        Supplemental Security Record
 U.S.C.     United States Code
 YTD        Year-to-Date




Performance Indicator Audit: DDS Processing (A-02-06-16110)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured, as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General and other reports related to SSA’s GPRA performance and related
       information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicators.
   •   Flowcharted the processes. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the manual controls within and surrounding
       each of the critical applications to determine whether the tested controls were
       adequate to provide and maintain reliable data to be used when measuring the
       specific indicators.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metrics of key performance indicators to ensure mathematical
       accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these items interacted with related
processes within SSA and the existing measurement systems. Our understanding of
the Agency’s mission, goals, objectives, and processes were used to determine if the
performance indicators appear to be valid and appropriate given our understanding of
SSA’s mission, goals, objectives and processes. We followed all performance audit
standards in accordance with generally accepted government auditing standards. In
addition to these steps, we specifically performed the following to test the indicators
included in this report:



Performance Indicator Audit: DDS Processing (A-02-06-16110)                          B-1
AGENCY DECISIONAL ACCURACY RATE

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
            Completed application control reviews over the National Disability
              Determination Services System (NDDSS) and the Disability Case
              Adjudication and Review System (DICARS). An application control review
              includes testing access controls, data input, data output, data rejection,
              and data processing, as applicable.
            Completed a review of the DICARS/ Management Information Services
              Facility (MISF) interface process.
   •   Used a benefit specialist to review a sample of cases completed by the Disability
       Determination Services (DDS) centers to determine the completeness and
       accuracy of the disability determinations made.
   •   Used a statistician to determine the adequacy of the sampling methodology used
       to select cases within NDDSS for Disability Quality Branch (DQB) review.
   •   Selected a sample of cases and traced/agreed common data elements from the
       DICARS flat file to the claims folder to ensure that DQB properly
       entered/documented the proper data fields into DICARS.
   •   Observed a sample of cases at three DDS locations to determine whether cases
       were locked from changes or effectuation after being selected for DQB review.
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       Agency Decisional Accuracy (ADA) Rate from the MISF.
   •   Recalculated the MISF data for April 2006 and Fiscal Year 2006 and compared it
       to the ADA Rate in the “ADA Accuracy - National and Regional Rates" report.
   •   Traced data from supporting reports to the indicator calculation total included in
       the Performance and Accountability Report (PAR).

DDS CASES PROCESSED PER WORKYEAR (PPWY)

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following area:
            Completed application control reviews over the NDDSS and the Disability
              Operational Datastore (DIODS). An application control review includes
              testing access controls, data input, data output, data rejection, and data
              processing, as applicable.
   •   Performed a comparison of the summary data from the State Agency Operations
       Report (SAOR) report and the Master Beneficiary Record (MBR) and
       Supplemental Security Record (SSR) to ensure accuracy and completion of the
       transfer of files from the MBR and SSR, through NDDSS and into DIODS.
   •   Performed a walkthrough of the workyear input into DIODS at three separate
       DDS locations.
   •   Inquired about the process to review the weekly DDS Staffing and Workload
       Analysis (FD-15) report and correct any errors/anomalies discovered.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                         B-2
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       FD-15 report from DIODS.
   •   Traced data from supporting reports to the indicator calculation total included in
       the PAR.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                          B-3
                                                                                                                                                                                                 Appendix C
Flowchart of Agency Decisional Accuracy Rate
                         Disability Determination           DDS inputs receipt of            NDDSS receives claimant information from                DDS gathers and           Claim is approved
                        Services (DDS) receives               case in National            Modernized Claims System (MCS) or Modernized                reviews medical          or denied. Medical
                                                                                                                                                                                                        Case is closed in
      START              application for Disability        Disability Determination      Supplemental Security Income System (MSSICS) or             evidence in order            portion of the
                                                                                                                                                                                                           NDDSS.
                     Insurance (DI) or Supplemental           Services System               Social Security Administration Claims Control           to make a medical               decision is
                     Security Income (SSI) benefits.              (NDDSS).                              System (SSACCS).                               determination.              adjudicated.


   Automated Sample
   Selection Process                                                                                                 DDS notified electronically              DDS case folders
 (ASSP) Module applies              Determination is at sampling                                                     and all selected cases are               sent to respective
   sampling criteria to            interval for Quality Assurance                            Yes                       locked to ensure that                  regional Disability            A
    determinations in                       (QA) review?                                                             changes or effectuation do                 Quality Branch
 NDDSS to select sample                                                                                                   not take place.                           (DQB)
       population.

                                                No




                              Determination is favorable Title II or                   Determination                 Determination is
                               concurrent Title II/Title XVI? (Pre-          Yes      scores are above        No     not selected for
                              effectuation Review (PER review))                         cutoff score?                     PER
                                                                                                                                                              End


                                                                                                                     Determination is
                                                                                No                                   not selected for
                                                                                                                       QA or PER


          Claim is reviewed by
              DQB medical
             consultants and                                                                                       Review identifies
 A       disability examiners by                                                                                     substantive              No          B
           replicating the DDS                                                                                       deficiency?
          process as closely as
                 possible.
                                                                                                                          Yes
        Reviewer inputs review
          or results data into                                                                                  Reviewer corrects basic
            Disability Case                                                                                       decisional errors and
       Adjudication and Review                                                                                returns other cases to DDS
 B
       System (DICARS) using                                                                                   with directions for required               DDS performs
         the Federal Review                                                                                        corrective actions.                   corrective action            DQB completes
       Results form (screens in                                                                                                                                                                                  B
                                                                                                                                                        and returns case to             verification
               DICARS)                                                                                                                                  DQB for verification.
                                                                                                                                              Yes
                                     Data compiled in Social                                                       DDS agrees with
          DICARS interfaces                                            Corrected                                     deficiency?                                         Yes
                                     Security Administration                               Performance
           with Management                                             errors are                                                              No
                                     Headquarters and is the                           Indicator 10: Agency
         Information Services                                        removed from                                                                                                                     DDS and DQB
                                        basis of Agency                                Decisional Accuracy
        Facility (MISF) to pass                                     total estimated                                                                     DDS rebuts              Deficiency             notified and
                                      Decisional Accuracy                                   (ADA) rate                                                                                           No                         B
                QA data                                                  errors.                                                                          finding                upheld?              DQB rescinds
                                         (ADA) reports
                                                                                                                                                                                                        deficiency




Performance Indicator Audit: DDS Processing (A-02-06-16110)                                                                                                                                                                 C-1
Agency Decisional Accuracy Rate
•   Disability Determination Services (DDS) receives application for Disability Insurance
    (DI) or Supplemental Security Income (SSDI) benefits.
•   DDS inputs receipt of case in National Disability Determination Services System
    (NDDSS).
•   NDDSS receives claimant information from Modernized Claims System (MCS),
    Modernized Supplemental Security Income System (MSSICS), or Social Security
    Administration Claims Control System (SSACCS).
•   DDS gathers and reviews medical evidence in order to make a medical
    determination.
•   Claim is approved or denied; medical portion of the decision is adjudicated.
•   Case is closed in NDDSS.
•   Automated Sample Selection Process (ASSP) module applies sampling criteria to
    determinations in NDDSS to select sample population.
•   Determination is at sampling interval for Quality Assurance (QA) review?
            o Yes
            o No - Determination is favorable Title II or concurrent Title II/Title XVI for
                Pre-effectuation review (PER)?
                     Yes - Determination scores are above cutoff score?
                           • Yes
                           • No - Determination is not selected for PER review.
                                  o End
                     No - Determination is not selected for QA or PER review.
                           • End
•   DDS notified electronically and all selected cases are locked to ensure that changes
    or effectuation do not take place.
•   DDS case folders sent to respective regional DQB.
•   A
•   Claim is reviewed by Disability Quality Branch (DQB) medical consultants and
    disability examiners by replicating the DDS process as closely as possible.
•   Review identifies substantive deficiency?
            o Yes - Reviewer corrects basic decisional errors and returns cases to DDS
                with directions for required corrective actions.
                     DDS agrees with deficiency?
                           • Yes - DDS performs corrective action and returns case to
                              DQB for verification.
                                  o DQB completes verification.
                           • No - DDS rebuts finding
                                  o Deficiency upheld?
                                           Yes - DDS performs corrective action and
                                             returns case to DQB for verification.
                                           No - DDS and DQB notified and DQB rescinds
                                             deficiency.
            o No - B


Performance Indicator Audit: DDS Processing (A-02-06-16110)                             C-2
•   B
•   Reviewer inputs review/results data into Disability Case Adjudication and Review
    System (DICARS) using the Federal Review Results form (screens in DICARS).
•   DICARS interfaces with the Management Information Services Facility (MISF) to
    pass QA data.
•   Data is compiled in Social Security Administration (SSA) Headquarters (HQ) and is
    the basis of Agency Decisional Accuracy (ADA) reports.
•   Corrected errors removed from total estimated errors.
•   ADA rate is reported in the PAR.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                        C-3
Flowchart of Disability Determination Services (DDS) Cases
Processed Per Workyear (PPWY)
                          Disability Determination           NDDSS receives claimant information from             DDS gathers and            If medical information
                                                                                                                                                                            DDS inputs
                           Services (DDS) inputs          Modernized Claims System (MCS) or Modernized             reviews medical              is not sufficient, a
                                                                                                                                                                          medical decision
    START                receipt of case in National     Supplemental Security Income System (MSSICS) or          evidence in order                Consultative
                                                                                                                                                                           as reported on
                          Disability Determination          Social Security Administration Claims Control        to make a medical                Examination is
                                                                                                                                                                          Form SSA-831.
                         Services System (NDDSS).                       System (SSACCS).                            determination.                  scheduled.




                                                                                                                             DIODS calculates the cumulative
    Claim is approved                                             NDDSS interfaces with                                                                                  The Office of Disability
                                                                                               Personnel hours and          claims processed per workyear for
    or denied. Medical                                             Disability Operational                                                                                Determinations (ODD)
                                     Case is closed in                                          staffing information        each State, Region, and the Nation
       portion of the                                             Datastore (DIODS) to                                                                                   reviews weekly FD-15
                                        NDDSS.                                                  (workyear) inputted          on a weekly basis for reporting on
         decision is                                                provide processed                                                                                       report to identify
                                                                                                    into DIODS.               the DDS Staffing and Workload
        adjudicated.                                                   claims data.                                                                                            anomalies.
                                                                                                                                 Analysis (FD-15) Report.




      ODD notifies the                                         Month end cumulative
                                  DCS corrects errors                                                                            Provide feedback             Year-end PPWY number from
     Office of Systems                                       Processed Per Workyear
                                   and the report is                                             Is goal being                  to the Office of the           FD-15 report is recorded in
        (DCS) of the                                       (PPWY) data from FD-15 used                                 No
                                 regenerated for ODD                                                 met?                         Chief Strategic                 the Performance and
    anomalies/errors that                                    to update Commissioners
                                       review.                                                                                   Officer (OCSO).              Accountability Report (PAR).
    need to be corrected.                                         Tracking Report.

                                                                                                                                         Yes




     Performance Indicator 11:
      Disability Determination
       Services (DDS) cases
      processed per workyear
              (PPWY).




Performance Indicator Audit: DDS Processing (A-02-06-16110)                                                                                                                                         C-4
Disability Determination Services (DDS) Cases
Processed Per Workyear (PPWY)
•   DDS inputs receipt of case in National Disability Determination Services System
    (NDDSS).
•   NDDSS receives claimant information from Modernized Claims System (MCS),
    Modernized Supplemental Security Income System (MSSICS), or Social Security
    Administration Claims Control System (SSACCS).
•   DDS gathers and reviews medical evidence to make a medical determination.
•   If medical information is not sufficient, a consultative examination is scheduled.
•   DDS inputs medical decision as reported on Form SSA-831.
•   Claim is approved or denied; medical portion of the decision is adjudicated.
•   Case is closed in NDDSS.
•   NDDSS interfaces with Disability Operational Datastore (DIODS) to provide
    processed claims data.
•   Personnel hours and staffing information (workyear) are input into DIODS.
•   DIODS calculates the cumulative claims processed per workyear for each state,
    region, and the Nation on a weekly basis for reporting to the DDS Staffing and
    Workload Analysis (FD-15) Report.
•   The Office of Disability Determinations (ODD) reviews the weekly FD-15 report to
    identify anomalies.
•   ODD notifies the Office of Systems (OS) of the anomalies/errors that need to be
    corrected.
•   OS corrects errors and the report is regenerated for ODD review.
•   Month end cumulative PPWY data from FD-15 report is used to update the
    Commissioners Tracking Report.
•   Is the goal being met?
            o Yes - Year-end PPWY number from FD-15 report is recorded in the
               Performance and Accountability Report (PAR).
            o No - Provide feedback to the Office of the Chief Strategic Officer.
                    Year-end PPWY number from FD-15 report is recorded in the PAR.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                        C-5
                                                              Appendix D
Agency Comments




Performance Indicator Audit: DDS Processing (A-02-06-16110)
                                          SOCIAL SECURITY


MEMORANDUM


Date:      April 18, 2007                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Disability
           Determination Services Processing" (A-02-06-16110)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

           Attachment:
           SSA Response




           Performance Indicator Audit: DDS Processing (A-02-06-16110)                                 D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE INDICATOR AUDIT: DISABILITY DETERMINATION
SERVICES PROCESSING" (A-02-06-16110)


Thank you for the opportunity to review and comment on the draft report. We generally agree
with the report’s findings and the intent of the recommendations. Our responses to the specific
recommendations are provided below. We are also providing technical comments to enhance the
accuracy of the report.

Recommendation 1

The Social Security Administration (SSA) should ensure that the “least privileged access”
principle is in place for SSA personnel that have the ability to directly modify, create or delete
the datasets used to calculate the results of this indicator.

Response

We agree with this recommendation and are taking the following actions: We will delete one of
the six Office of Quality Control (OQC) staff members who has the "All" access designation
within the Top Secret security software to the Management Information System Facility (MISF)
datasets used to calculate the indicator results. All changes to data will be made through
established screens and a report will be printed identifying all changes. Each report will be
stored by management. As noted in our technical comments, a management review is done prior
to the release of each report. We will move to formalize this review. Each report packet will be
appended to indicate that a management reasonableness test was conducted to ensure that the
numbers reported are correct. Documentation of this review will be annotated on the report
cover sheet. Each time that we run the monthly, quarterly and fiscal year tables, we will make a
copy of all the data on the MISF, and store this copy in the tape library at the National Computer
Center. The retention period will be two years. In addition, we will create a text file and copy
the contents onto a compact disk to be retained in the Division.

Recommendation 2

SSA should implement formal procedures to ensure that reviews of the FD-15 reports are
performed in a timely manner.

Response

We agree. Formal procedures have been in place for many years to ensure that reviews of the
FD-15 reports are performed in a timely manner. However, they were not previously
documented. During the course of the audit, the Office of Disability Determinations established
the documentation and it was provided to PricewaterhouseCoopers prior to the release of this
draft. We believe that this should be noted in the report.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                                      D-2
Recommendation 3

SSA should maintain an audit trail for the Social Security Administration Claim Control System
(SSACCS) that captures the user identification, terminal, date and time the transaction was
processed. Policies and procedures should be implemented requiring a review of the audit trail
for inappropriate access or processing of transactions. In the event that the SSACCS application
is replaced, SSA management should ensure that the replacement system is designed with the
appropriate audit trail controls.

Response

We disagree. SSACCS will be phased out; therefore, it is cost-prohibitive to maintain an audit
trail for this system’s transactions. The Office of Management and Budget's Circular A-11,
section 230.2e states “Performance data need not be perfect to be reliable, particularly if the cost
and effort to secure the best performance data will exceed the value of any data so obtained.”
This directive applies in this situation. However, we agree that the replacement system should
be designed with appropriate audit trail controls.

Technical Comments

Management also provided 2 technical comments that were addressed in the report.




Performance Indicator Audit: DDS Processing (A-02-06-16110)                                      D-3
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
